2.

17-jo
In the

Supreme Court of tfje fHnttefc States;
JOHN DERAFFELE,
Petitioner,
-againstUNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As Required by Rule 33.1(h)
I, Enida Morina, certify that the above captioned case complies with the
word limitations of this Court, containing 5,327 words. The word limits do not
include the documents exempt by Rule 33.1 (d). The word-processing system used
to prepare the document was Microsoft Word.
I declare under penalty of perjury that this document contains an accurate
word count according to Microsoft Word Counter.
Dated: July 2, 2019
Morina

LytmeBaHey
Notary Public, State of NY
NO.01BA6311679
QuaMed in Richmond County
Commtaston Expire* September 1a 90d

